CREDIT CARD ACCOUNT
AGREEMENT AND DISCLOSURE

Account Number

N/A

THIS IS YOUR CREDIT CARD ACCOUNT AGREEMENT AND IT INCLUDES NECESSARY FEDERAL TRUTH-IN-LENDING DISCLOSURE
STATEMENTS, REWARDS VISA, SHARE SECURED VISA AND PLATINUM VISA AGREEMENTS, AND ANY SPECIAL INSTRUCTIONS
REGARDING THE USE OF YOUR REWARDS VISA, SHARE SECURED VISA AND PLATINUM VISA CREDIT CARDS, AND/OR ANY
OTHER ACCOUNT ACCESS DEVICE. PLEASE BE CERTAIN TO READ THIS AGREEMENT CAREFULLY AND NOTIFY US AT ONCE IF
ANY PARTS ARE UNCLEAR.

Received by Member(s)

N/A

Initial

Mailed to Member(s)
Initial

Date

N/A

Staff Initial

Date

Interest Rate and Interest Charges

9.99-18.99 %
Share Secured VISA: 11.99%
Platinum VISA: 8.99-17.99%

Annual Percentage Rate (APR)
For Purchases

Rewards VISA:

Annual Percentage Rate (APR)
For Balance Transfers

Rewards VISA:

Annual Percentage Rate (APR)
For Cash Advances

Rewards VISA: 9.99-18.99%

9.99-18.99%
Share Secured VISA: 11.99 %
Platinum VISA: 8.99-17.99%
Share Secured VISA: 11.99%
Platinum VISA: 8 .99-17.99%

Paying Interest

We will not charge You interest on purchases if You pay Your entire balance owed
each month within 28 days of Your statement closing date. We will begin charging
interest on cash advances and balance transfers on the transaction date.

For Credit Card Tips from
the Consumer Financial
Protection Bureau

To learn more about factors to consider when applying for or using a Credit Card, visit
the website of the Consumer Financial Protection Bureau at
http://www.consumerfinance.gov/learnmore.

Fees
Transaction Fees

.

Foreign Transaction

1.00
1.00

% of each foreign currency transaction in U.S. dollars.
% of each U.S. Dollar transaction that occurs in a foreign country.

Penalty Fees

.
.

Returned Payment
Late Charge

Up to $35.00
Up to $35.00

How We Will Calculate Your Balance: We use a method called "average daily balance (including new purchases)." See
Your Account Agreement for details.
Billing Rights: Information on your rights to dispute transactions and how to exercise those rights is provided in Your
Account Agreement.

DEFINITIONS. In this Agreement, the reference to "We," "Us," "Our" and "Credit Union" mean PARKSIDE CREDIT UNION. The words "You" and "Your" mean
each person accepting this Agreement. If this is a joint Account, read singular pronouns in the plural. The words "Card" and "Credit Card" mean any Rewards
VISA, Share Secured VISA or Platinum VISA Credit Card issued to You by Us and any duplicates or renewals. The word "Account" means the Rewards VISA,
Share Secured VISA or Platinum VISA Credit Card Account established for You under this Agreement. "Convenience Checks" mean the special Account
access devices that We may provide for Your use from time to time.
PROMISE TO PAY. You understand that the following terms and conditions found herein constitute Our Agreement with You. You may request advances on
Your Account through a variety of means which could include (but may not be limited to) advance request forms, vouchers, checks, charge slips, Convenience
Checks, Credit Cards, and the like. Regardless of the means by which any advance is made, You promise to pay Us all amounts charged to Your Account by
You or by any user who has access to Your Account, with actual, apparent or implied authority for use of Your Account, including Finance Charges and other
fees or charges described herein.
Copyright Oak Tree Business Systems, Inc., 2010-2016. All Rights Reserved.

Page 1 of 3

OTBS 016CC PARK (9/16)

Account
Feature Categories

Monthly
Periodic Rate

Annual
Percentage Rate

Rewards VISA

0.83250000 - 1.58250000

9.99% - 18.99%

Share Secured VISA

0.99916666

11.99%

Platinum VISA

0.74916666 - 1.49916666

8.99% - 17.99%

USE OF YOUR CARD. You may use Your Card to buy goods and services in
any place that it is honored and to get cash advances at participating financial
institutions. You agree not to use Your Card for illegal transactions including,
but not limited to, advances made for the purpose of gambling and/or
wagering where such practices are in violation of applicable state and/or
federal law.

multiplying the average daily balance subject to a Finance Charge by the
Monthly Periodic Rate.

You can avoid Finance Charges on purchases by paying the full amount of the
entire balance owed each month within 28 days of Your statement closing date.
Otherwise, the new balance of purchases, and subsequent purchases from the
date they are posted to Your Account, will be subject to a Finance Charge. Cash
SECURITY. Collateral (other than household goods or any dwelling) given as advances and balance transfers are always subject to a Finance Charge from the
security under this Agreement or for any other loan You may have with Us will later of the date they are posted to Your Account or from the first day of the
secure all amounts You owe Us now and in the future if that status is billing cycle in which the transaction is posted to Your Account.

reflected in the "Truth-in-Lending Disclosure" in any particular Agreement
evidencing such debt.
LATE CHARGE. If Your payment is more than 10 days late, You will be charged
the lesser of: (a) the amount of the minimum payment due; or (b) $35.00.

CONSENSUAL LIEN ON SHARES. You grant and consent to a lien on Your
shares with Us (except for IRA and Keogh accounts) and any dividends due or OTHER FEES AND CHARGES. You will be charged the following fees associated
to become due to You from Us to the extent You owe on any unpaid Credit with the use of Your Card: (a) $20.00 for each replacement Card You request;
Card balance.
(b) $5.00 for each pin reissue You request; and (c) the lesser of $35.00 for any
ACCOUNT RESTRICTIONS. In order to receive and maintain a Share Secured
VISA Account, You agree to give Us a specific pledge of shares which will
equal Your Credit Limit. In the event that You default on Your Share Secured
VISA Account, We may apply these shares toward the repayment of any
amount owed on such Account. You may cancel Your Share Secured VISA
Account at any time by paying any amounts owed on Your Account. To be
certain that Your entire balance and all advances are paid, any shares pledged
may not be available to You for 30 days after You have cancelled and any
outstanding balance is paid in full.

check (or other negotiable instrument used for payment) which is returned
unpaid, or the required minimum payment amount for the returned payment.

PERIODIC STATEMENTS. On a regular basis, You will receive a statement
showing all transactions on Your Account including amounts paid and
borrowed since Your last statement. We will mail You a statement each billing
cycle in which there is a debit or credit balance or when a Finance Charge is
imposed. We need not send You a statement if We feel Your Account is
uncollectible or if We have started collection proceedings against You because
You defaulted. EACH STATEMENT IS DEEMED TO BE A CORRECT
STATEMENT OF ACCOUNT UNLESS YOU ESTABLISH A BILLING ERROR
LINE OF CREDIT LIMITS. You will be notified of each specific Credit Limit for PURSUANT TO THE FEDERAL TRUTH-IN-LENDING ACT.
which You are approved. Unless You are in default, any Credit Limits
established for You will generally be self- replenishing as You make payments.
OUR RESPONSIBILITIES TO HONOR CONVENIENCE CHECKS. We are under no
obligation to honor Your Convenience Checks if: (1) by paying a Convenience
You will keep Your unpaid balance within Your Credit Limit set by Us, and You Check, You would exceed Your Credit Limit; (2) Your Cards or Convenience
will pay any amount over Your Credit Limit on Our demand whether or not We Checks have been reported lost or stolen; (3) Your Account has been
authorize the advances which caused You to exceed Your Credit Limit. Even if cancelled or has expired. If a postdated Convenience Check is paid and, as a
Your unpaid balance is less than Your Credit Limit, You will have no credit result, any other Convenience Check is returned unpaid, We are not
available during any time that any aspect of Your Account is in default.
responsible for any resulting loss or liability.
JOINT ACCOUNTS. Each Borrower will be responsible, jointly and severally, for
the repayment of any amounts owed. If any Account access device, such as a
Personal Identification Number (PIN) is requested and approved, You
understand that any such Account access device(s) will be mailed only to the
primary Borrower at the address that We have on file for You. We may refuse
to follow any instructions which run counter to this provision.

DEFAULT. You will be in default if: (a) You do not make any payment or
perform any obligation under this Agreement, or any other agreement that You
may have with Us; or (b) You should die, become involved in any insolvency,
receivership or custodial proceeding brought by or against You; or (c) You
have made a false or misleading statement in Your credit application and/or in
Your representations to Us while You owe money on Your Account; or (d) A
judgment or tax lien should be filed against You or any attachment or
garnishment should be issued against any of Your property or rights,
specifically including anyone starting an action or proceeding to seize any of
Your funds on deposit with Us; and/or (e) We should, in good faith, believe
Your ability to repay Your indebtedness hereunder is or soon will be impaired,
time being of the very essence.

MINIMUM MONTHLY PAYMENTS (PAYMENT SCHEDULE). Though You need
only pay the Minimum Monthly Payments, You understand that You have the
right to repay at any time without penalty. You also understand that You will
only be charged periodic Finance Charges to the date You repay Your entire
balance. You may make larger payments without penalty. Any partial payment
or prepayment will not delay Your next scheduled payment. All payments to
Us must be in lawful money of the United States. Except as required by law, Upon any occurrence of default, We may, to the extent permitted by law,
the order in which We may apply payments is at Our discretion.
cancel Your rights under this Agreement, require the return of all access
devices and declare the entire balance of Your Account immediately due and
Any unpaid portion of the Finance Charge will be paid by subsequent payable, without prior notice or demand.
payments and will not be added to Your principal balance. You understand that
any delay in the repayment of Your unpaid balance will increase Your periodic COLLECTION COSTS. In the event collection efforts are required to obtain
Finance Charges and any acceleration in the repayment of Your unpaid balance payment on this Account, to the extent permitted by law, You agree to pay all
will decrease Your periodic Finance Charges.
court costs, private process server fees, investigation fees or other costs
incurred in collection and actual attorneys' fees incurred in the course of
Minimum Payments will be an amount equal to 3.00% of Your new unpaid collecting any amounts owed under this Agreement or in the recovery of
Account balance at the end of each billing cycle, subject to the lesser of any Collateral.
$35.00 or Your balance, plus any portion of the Minimum Payments shown on
prior statement(s) which remains unpaid, plus any amount that exceeds Your ENFORCEMENT. We do not lose Our rights under this or any related
agreement if We delay enforcing them. We can accept late payments, partial
approved Credit Limit.
payments or any other payments, even if they are marked "paid in full"
You may, by separate agreement, authorize Us to charge Your payment without losing any of Our rights under this Agreement. If any provision of this
or any related agreement is determined to be unenforceable or invalid, all other
directly to Your share or checking account.
provisions remain in full force and effect.
FINANCE CHARGES. In the case of any transactions under Your Account, the
balances subject to the periodic Finance Charge are the average daily NOTIFICATION OF ADDRESS CHANGE. You will notify Us promptly if You
transactions balances outstanding during the month (including new move or otherwise have a change of address.
transactions). To get the average daily balance, We take the beginning balance
each day, add any new purchases, balance transfers, cash advances, debit CHANGE IN TERMS. We may change the terms of this Agreement by mailing
adjustments or other charges and subtract any payments, credits and unpaid or delivering to You written notice of the changes as prescribed by the Federal
Finance Charges. This gives Us the daily balance. Then, We add up all the Truth-In-Lending Act. To the extent permitted by law, the right to change the
daily balances for the billing cycle and divide them by the number of days in terms of this Agreement includes, but is not limited to, the right to change the
the billing cycle. The Finance Charge for a billing cycle is computed by periodic rate applicable to Your unpaid balance and/or future advances.
Copyright Oak Tree Business Systems, Inc., 2010-2016. All Rights Reserved.

Page 2 of 3

OTBS 016CC PARK (9/16)

Your Billing Rights: Keep this Document for Future Use
DEBT PROTECTION. Debt protection is not required for any extension of credit
under this Agreement. However, You may purchase any debt protection
available through Us and have the costs added to Your outstanding balance. If This notice tells You about Your rights and Our responsibilities under the Fair
You elect to do so, You will be given the necessary disclosures and Credit Billing Act.
documents separately.
What To Do If You Find A Mistake On Your Statement
INTEGRATED DOCUMENTS. Any separate sheet of paper labeled "Additional
Disclosure - Federal Truth-In-Lending Act," which is delivered together with If You think there is an error on Your statement, write to Us at 1747
this Agreement or at a later date becomes an integrated part of this S. Newburgh Road, Westland, MI 48186. In Your letter, give us the
Agreement and Disclosure.
following information:
CONSENT TO AGREEMENT. You acknowledge receipt of a copy of this
Agreement. By signing the application; or by using Your Account or any
Account access device; or by authorizing another to use Your Account, You
agree to and accept its terms.
UPDATING AND DISCLOSING FINANCIAL INFORMATION. You will provide
facts to update information contained in Your original Account application or
other financial information related to You, at Our request. You also agree that
We may, from time to time, as We deem necessary, make inquiries pertaining
to Your employment, credit standing and financial responsibility in accordance
with applicable laws and regulations. You further agree that We may give
information about the status and payment history of Your Account to
consumer credit reporting agencies, a prospective employer or insurer, or a
state or federal licensing agency having any apparent legitimate business need
for such information.

.

.
.

Account information: Your name and Account number.
Dollar amount: The dollar amount of the suspected error.
Description of problem: If You think there is an error on Your bill, describe
what You believe is wrong and why You believe it is a mistake.

You must contact Us:

.
.

Within 60 days after the error appeared on Your statement.
At least 3 business days before an automated payment is scheduled, if
You want to stop payment on the amount You think is wrong.

You must notify Us of any potential errors in writing. You may call Us, but if
You do We are not required to investigate any potential errors and You may
have to pay the amount in question.

What Will Happen After We Receive Your Letter
TERMINATION. Either You or We may cancel Your Account at any time,
whether or not You are in default. You will, in any case, remain liable to pay When We receive Your letter, We must do two things:
any unpaid balances according to the terms of Your Account.
1) Within 30 days of receiving Your letter, We must tell You that We received
OWNERSHIP. Your Card remains Our property and may be cancelled by Us at
Your letter. We will also tell You if We have already corrected the error.
any time without notice. You agree to surrender Your Card and to discontinue 2) Within 90 days of receiving Your letter, We must either correct the error or
its use immediately upon Our request.
explain to You why We believe the bill is correct.

ISSUANCE OF A PERSONAL IDENTIFICATION NUMBER. We will issue a While We investigate whether or not there has been an error:
Personal Identification Number (PIN) for use with participating Automated
Teller Machines (ATMs). This PIN is confidential and should not be disclosed . We cannot try to collect the amount in question, or report You as
to anyone. You may use Your PIN to access Your Account and all sums
delinquent on that amount.
advanced will be added to Your Account balance. In the event a use of Your .
The charge in question may remain on Your statement, and We may
PIN constitutes an Electronic Fund Transfer, the terms and conditions of Your
to charge You interest on that amount.
Electronic Fund Transfer Agreement may also affect Your rights.
. continue
While You do not have to pay the amount in question, You are responsible
EFFECT OF AGREEMENT. Even though the sales, cash advance, credit or . for the remainder of Your balance.
We can apply any unpaid amount against Your Credit Limit.
other slips You may sign or receive when using Your Card contain terms, this
Agreement is the contract which solely applies to all transactions involving
After We finish Our investigation, one of two things will happen:
the Card.
UNAUTHORIZED USE. You may be liable for the unauthorized use of Your
Card. You will not be liable for the unauthorized use that occurs after You
notify Us of the loss, theft, or possible unauthorized use by calling Us at
(734) 293-2021 within Michigan or (888) 203-3381 outside Michigan, or by
writing to Us at 1747 S. Newburgh Road, Westland, MI 48186. In any case,
Your liability will not exceed $50.00.
REFUSAL TO HONOR CARDS OR CONVENIENCE CHECKS. We are not liable
for the refusal or inability of merchants, financial institutions and others to
accept the Cards or Convenience Checks, or electronic terminals to honor the
Cards or complete a Card withdrawal, or for their retention of the Cards or
Convenience Checks.

.
.

If We made a mistake: You will not have to pay the amount in question or
any interest or other fees related to that amount.

If We do not believe there was a mistake: You will have to pay the amount in
question, along with applicable interest and fees. We will send You a
statement of the amount You owe and the date payment is due. We may
then report You as delinquent if You do not pay the amount We think
You owe.

If You receive Our explanation but still believe Your bill is wrong, You must
write to Us within 10 days telling Us that You still refuse to pay. If You do so,
We cannot report You as delinquent without also reporting that You are
questioning Your bill. We must tell You the name of anyone to whom we
reported You as delinquent, and We must let those organizations know when
FOREIGN TRANSACTIONS. For transactions initiated in foreign currencies, the the matter has been settled between Us. If We do not follow all of the rules
exchange rate between the transaction currency and the billing currency (U.S. above, You do not have to pay the first $50.00 of the amount You question
dollars) will be: (a) a rate selected by VISA from the range of rates available in even if Your bill is correct.
wholesale currency markets for the applicable central processing date, which
Your Rights If You Are Dissatisfied With Your Credit Card Purchases
rate may vary from the rate VISA itself receives; or (b) the governmentmandated rate in effect for the applicable central processing date. In each
If You are dissatisfied with the goods or services that You have purchased
instance, plus or minus any adjustment determined by the Credit Union.

with Your Credit Card, and You have tried in good faith to correct the problem
TRANSACTION SLIPS. Your monthly statement will identify that merchant, with the merchant, You may have the right not to pay the remaining amount
electronic terminal or financial institution at which transactions were made, due on the purchase. To use this right, all of the following must be true:
but sales, cash advances, credit or other slips cannot be returned with
1) The purchase must have been made in Your home state or within 100
the statement.
miles of Your current mailing address, and the purchase price must have
LOST CARDS OR CONVENIENCE CHECKS. To report lost or stolen Credit
been more than $50.00. (Note: Neither of these are necessary if Your
Cards or Convenience Checks, You will immediately call Us at (734)
purchase was based on an advertisement We mailed to You, or if We own
293-2021 (Michigan Calls), or (888) 203-3381 during business hours, or
the company that sold You the goods or services.)
(866) 333-4740 after business hours or write to Us at 1747 S. Newburgh 2) You must have used Your Credit Card for the purchase. Purchases made
Road, Westland, MI 48186.
with cash advances from an ATM or with a check that accesses Your
Credit Card account do not qualify.
CREDITS. If a merchant who honors Your Card gives You credit for returns or 3) You must not yet have fully paid for the purchase.
adjustments, they will do so by sending Us a slip which will be posted to
Your Account. If Your credits and payments exceed what You owe Us, We If all of the criteria above are met and You are still dissatisfied with
will hold and apply this credit against future purchases and cash advances, or the purchase, contact Us in writing at 1747 S. Newburgh Road, Westland,
if it is $1.00 or more refund it on Your written request or automatically MI 48186.
deposit it to Your share account after six months.
While We investigate, the same rules apply to the disputed amount as
GOVERNING LAW. This Agreement is controlled and governed by the laws of discussed above. After We finish Our investigation, We will tell You Our
the State of Michigan except to the extent that such laws are inconsistent decision. At that point, if We think You owe an amount and You do not pay,
with controlling federal law.
We may report You as delinquent.

Copyright Oak Tree Business Systems, Inc., 2010-2016. All Rights Reserved.

Page 3 of 3

OTBS 016CC PARK (9/16)

